Nos. 19-251 and 19-255

IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA,
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF FOR THE ELECTRONIC FRONTIER
FOUNDATION, THE FREEDOM TO READ
FOUNDATION, THE NATIONAL COALITION
AGAINST CENSORSHIP,
PEOPLE UNITED FOR PRIVACY FOUNDATION,
WOODHULL FREEDOM FOUNDATION, AND
DEFENDING RIGHTS & DISSENT AS AMICI
CURIAE
IN SUPPORT OF PETITIONERS
BRIAN T. BURGESS
Counsel of Record
GOODWIN PROCTER LLP
1900 N Street NW
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
Counsel for Amici Curiae
March 1, 2021

THOMAS MORE LAW CENTER,

Petitioner,

v.
XAVIER BECERRA,
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS...............................................I
TABLE OF AUTHORITIES ....................................... II
INTEREST OF AMICI CURIAE ................................. 1
SUMMARY OF ARGUMENT ..................................... 4
ARGUMENT ................................................................ 8
I.

II.

The Compelled Disclosure Of An
Organization’s Donors Should Be Subject
To Exacting First Amendment Scrutiny. ... 8
A.

For More Than Fifty Years, This Court
Has Emphasized The First Amendment
Harms From Forced Disclosure of
Organizational Affiliations…………. ..... 8

B.

There Is No Threshold Requirement To
Show Harassment From A Particular
Disclosure Requirement Before Exacting
First Amendment Scrutiny Applies… . 13

C.

Courts May Still Consider Evidence Of
Threats Or Harassment In Determining
Whether Government Interests Are
Sufficient To Justify Compelled
Disclosure……………………………… .. 19
The First Amendment Burden From
Compelled Disclosure Of Donor Identity
Exists Regardless Of Whether The
Information Is Publicly Disclosed.………..21

CONCLUSION .......................................................... 25

ii
TABLE OF AUTHORITIES
Page(s)
CASES:
ACLU v. Clapper,
785 F.3d 787 (2d Cir. 2015) ...................... 13, 17, 18
Boorda v. Subversive Activities Control
Board,
421 F.2d 1142 (D.C. Cir. 1969) ............................ 16
Brown v. Socialist Workers ’74
Campaign Committee (Ohio),
459 U.S. 87 (1982) ................................ 7, 12, 19, 21
Buckley v. Valeo,
424 U.S. 1 (1976) ...........................................passim
Community-Service Broadcasting of
Mid-America, Inc. v. FCC,
593 F.2d 1102 (D.C. Cir. 1978) (en
banc) ................................................................ 16, 17
Ctr. for Comparative Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015) .......................... 5, 15
Davis v. FEC,
554 U.S. 724 (2008) ................................................ 4
Fraternal Order of Police, Lodge No. 5 v.
City of Philadelphia,
812 F.2d 105 (3d Cir. 1987) .................................. 18

iii
Gibson v. Florida Legislative
Investigation Committee,
372 U.S. 539 (1963) .............................................. 21
Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961) .............................................. 10
John Doe No. 1 v. Reed,
561 U.S. 186 (2010) .................................. 12, 13, 19
Local 1814, Int’l Longshoremen’s Ass’n,
AFL-CIO v. Waterfront Comm’n of
N.Y. Harbor,
667 F.2d 267 (2d Cir. 1981) ........................ 4, 17, 23
NAACP v. State of Alabama,
357 U.S. 449 (1958) .......................................passim
Pollard v. Roberts,
283 F. Supp. 248 (E.D. Ark. 1968),
aff’d, Roberts v. Pollard, 393 U.S. 14
(1968) .............................................................passim
Shelton v. Tucker,
364 U.S. 479 (1960) .......................................passim
United States v. Stevens,
559 U.S. 460 (2010) .............................................. 23
OTHER AUTHORITIES:
ACLU, Unleashed and Unaccountable:
The FBI’s Unchecked Abuse of
Authority (Sept. 2013), https://bit.ly/. .................. 22

iv
Beverly Gage, What an Uncensored
Letter to M.L.K. Reveals, N.Y. TIMES
(Nov. 11, 2014) ...................................................... 22
Black Activists, BRENNAN CENTER FOR
JUSTICE (Jun. 26, 2020),
https://bit.ly/2PcLmZL ......................................... 24
Church Committee Reports, Book II,
Intelligence Activities and the Rights
of Americans, (1976), available at
https://bit.ly/37Knjrl; ............................................ 22
FBI Tracked King’s Every Move, CNN
(Dec. 29, 2008),
https://cnn.it/2OYbU0r; ........................................ 22
Jose A. Del Real & Zolan Kanno-Youngs,
U.S. Tracked Activists and
Journalists as Migrant Caravans
Headed to the Border, N.Y. TIMES
(May 7, 2019) ........................................................ 24
Mark Hosenball, U.S. ethics groups say
Barr uses DOJ as political tool, call
for his impeachment, REUTERS (Oct.
12, 2020)................................................................ 24

1
INTEREST OF AMICI CURIAE1
The Electronic Frontier Foundation (EFF) is the
leading nonprofit organization defending civil liberties
in the digital world, including the freedoms of speech
and association. On behalf of its more than 34,000
members, EFF champions digital rights through
impact litigation, policy analysis, grassroots activism,
and technology development, working to ensure that
rights and freedoms are enhanced and protected as our
use of technology grows. Since its founding in 1990,
EFF has become a leading authority on First
Amendment issues, and in that role, frequently files
amicus briefs in courts across the country, including in
this Court.
The Freedom to Read Foundation is a nonprofit
organization established by the American Library
Association to promote and defend First Amendment
rights, foster libraries as institutions that fulfill the
promise of the First Amendment, support the right of
libraries to include in their collections and make
available to the public any work they may legally
acquire, and establish legal precedent for the freedom
to read of all citizens.
The National Coalition Against Censorship
(“NCAC”) is an alliance of more than 50 national nonprofit literary, artistic, religious, educational,
professional, labor, and civil liberties groups that are
All parties have consented to the filing of this brief. No party’s
counsel authored this brief in whole or in part. No party or
party’s counsel contributed money that was intended to fund
preparing or submitting this brief. No person—other than amici
curiae, its members, or its counsel—contributed money that was
intended to fund preparing or submitting this brief.
1

2
united in their commitment to freedom of expression.
Since its founding, NCAC has worked to protect the
First Amendment rights of artists, authors, students,
readers, and the general public.
NCAC has a
longstanding interest in assuring the continuance of
robust First Amendment protections for those who
express unpopular views and individuals who support
those speakers. The views presented in this brief are
those of NCAC and do not necessarily represent the
views of each of its participating organizations.
The People United for Privacy Foundation
(“PUFP”) is a nonprofit, nonpartisan organization that
works to protect the rights of individuals to come
together in support of their shared values. PUFP
believes that every American has the right to support
causes they believe in without fear of harassment or
intimidation
PUFP provides information and
resources to policy makers, media, and the public
about the need to protect freedom of speech and
freedom of association through preserving citizen
privacy.
The Woodhull Freedom Foundation is a non-profit
organization that works to advance the recognition of
sexual freedom, gender equality, and family diversity.
The Foundation’s name was inspired by the
Nineteenth Century suffragette and women’s rights
leader, Victoria Woodhull. The organization works to
improve the well-being, rights, and autonomy of every
individual through advocacy, education and action.
Woodhull’s mission is focused on affirming sexual
freedom as a fundamental human right. The
Foundation’s advocacy has included a wide range of
human rights issues, including, reproductive justice,
anti-discrimination
legislation,
comprehensive

3
nonjudgmental sexuality education, and the right to
define one’s own family.
Defending Rights & Dissent (“DRAD”) is a national
not-for-profit public education and advocacy
organization based in Washington, DC. The mission
of the organization is to make real the promise of the
Bill of Rights for everyone. DRAD was founded by
activists, including civil rights activists, who were
persecuted by the infamous House Un-Americans
Activities Committee. As a result, while DRAD
cherishes the entire Bill of Rights, DRAD devotes
particular attention to protecting the right to political
expression. DRAD understands the consequences of
when people are compelled to disclose their political
associations to state actors.
As organizations focused on protecting individual
privacy, freedom of speech, and freedom of privacy, the
undersigned amici have serious concerns about the
Ninth Circuit’s decision upholding the California
Attorney General’s policy of requiring nonprofits to
disclose a list of major donors as a condition of
registering with the State. The Ninth Circuit’s
position, if adopted by this Court, would call wellestablished First Amendment protections into
question and could substantially chill associational
activities. Amici accordingly urge the Court to reverse
the decision below and to affirm that because
requirements to disclose an association’s membership
or donor lists impose significant First Amendment
burdens, they are subject to exacting judicial scrutiny
and generally must be narrowly tailored to further a
compelling government interest.

4
SUMMARY OF ARGUMENT
For more than half a century, individuals wishing
to join with others to advance social movements,
advocate on issues of public importance, and fight for
institutional change have relied on a consistent line of
Supreme Court precedent requiring the government to
identify a compelling justification before it can force
disclosure of organizational membership and/or donor
lists.
These cases recognize that forcing an
organization to release such data to the State not only
divulges the First Amendment activities of individual
members and donors, but may also deter such
activities in the first place.
Individuals may
legitimately fear of any number of negative
consequences from disclosure, including harassment
by the public, e.g., NAACP v. State of Alabama, 357
U.S. 449, 462-63 (1958), adverse government action,
e.g., Shelton v. Tucker, 364 U.S. 479, 486-87 (1960),
and reprisals by a union or employer, e.g., Local 1814,
Int’l Longshoremen’s Ass’n, AFL-CIO v. Waterfront
Comm’n of N.Y. Harbor, 667 F.2d 267, 272 (2d Cir.
1981). Or they may simply “prefer not to have their
. . . affiliations . . . disclosed publicly or subjected to the
possibility of disclosure.” Pollard v. Roberts, 283 F.
Supp. 248, 258 (E.D. Ark. 1968), aff’d, Roberts v.
Pollard, 393 U.S. 14 (1968). And privacy is especially
important for organizations that challenge the
practices and policies of the very governments that
seek the identities of the group’s members and
supporters.
Under these decisions, the likelihood that
individuals will face adverse consequences from
disclosure is a factor courts consider when deciding
whether or not the government’s interest justifies the

5
First Amendment burden. See Davis v. FEC, 554 U.S.
724, 744 (2008). But in order to satisfy the First
Amendment, any mandatory disclosure of individuals’
donations to or membership in an organization must
be justified by a compelling government interest and
narrowly tailored to further that interest.
The precedent established by this case will impact
the associational rights of all civil rights and civil
liberties groups.
Even assuming the California
Attorney General intends only the most socially
beneficial uses of the associational data he collects, the
lack of rigorous judicial scrutiny reflected in the
decision below creates an unacceptable risk that
governmental authorities will receive a greenlight to
compile sensitive affiliation information that could be
used to chill or even suppress advocacy. Indeed, it was
exactly such conduct by Alabama in the 1950s, via its
attorney general, that led to this Court’s landmark
decision blocking the State from forcing such
disclosures. NAACP v. Alabama, 357 U.S. 449. The
risk of similar over-reaching compels the amici here—
who collectively represent a wide variety of interests,
ranging from digital privacy to sexual autonomy—to
share their perspective about the development,
meaning, and effects of the case law that limits the
forced disclosure of non-profit information.
The Ninth Circuit decisions in this case worked a
significant and unnecessary departure from decades of
this Court’s precedent, leaving organizations with no
meaningful protection from compelled disclosure of
their donor or member lists unless they can come
forward—before the disclosure—with evidence
showing donors or members “would experience
threats, harassment, or other potentially chilling

6
conduct as result of [a] disclosure requirement.” Ctr.
for Comparative Politics v. Harris, 784 F.3d 1307, 1316
(9th Cir. 2015); see id. at 1312-1313, 1316 (asserting
that “a disclosure requirement in and of itself” does not
impose any “First Amendment injury”); Pet. App. (No.
19-251) at 25a-39a. If accepted, this approach risks
giving the government power to compile data on its
citizens’ organizational affiliations to further
generalized law-enforcement interests without any
obligation to engage in narrow tailoring—unless
particular organizations prove compelled disclosure
would turn away potential donors or members or lead
to “threats, harassment, or reprisal.” Id.
The Ninth Circuit’s approach is precarious and
unworkable.
Starting with its civil-rights-era
decisions of the late 1950s, this Court has repeatedly
recognized the dangers of providing the government
with unchecked power to collect its citizens’
organizational affiliations, and has therefore applied
exacting scrutiny to requests for disclosure of such
information even where the record does not contain
evidence establishing that compelled disclosure would
lead directly to threats or harassment or seeking to
quantify a resulting membership drop.
Those
concerns are equally applicable today.
In an
increasingly polarized country, speaking out on
contentious issues creates a very real risk of
harassment and intimidation by private citizens and
critically by the government itself. Furthermore,
numerous contemporary issues—ranging from the
Black Lives Matter movement, to gender identity, to
immigration—arouse significant passion by people
with many divergent beliefs. Thus, now, as much as
any time in our nation’s history, it is necessary for

7
individuals to be able to express and promote their
viewpoints through associational affiliations without
personally exposing themselves to a political firestorm
or even governmental retaliation.
The Ninth Circuit’s approach substantially underprotects this important right: legitimate concerns
about compelled disclosure are not always based on
concrete fears of immediate, and provable, threats or
reprisals.
Instead, they can also be based on
trepidation about giving the government itself
permanent access to one’s organizational affiliations—
information that the government (including a future
administration) might misuse.
The importance of First Amendment scrutiny of
compelled disclosure requirements is not diminished
merely because the government pledges to keep
sensitive
associational
information
nonpublic.
Numerous cases recognize that governments
themselves are able to use organizational affiliation
information in damaging ways. E.g., Shelton, 364 U.S.
at 486-87. After all, even if a given administration
insists that the information it collects will only be used
for socially beneficial purposes, once a database exists,
it can be exploited by a future government with less
benign motives.
This Court should hold that whenever the
government seeks to require an organization to
disclose its members or donors, it must first bear the
burden of satisfying “exacting scrutiny” by identifying
an interest of sufficient importance, closely connected
and narrowly tailored to the disclosure, to justify the
intrusion on individuals’ “right to privacy” in their
“political associations and beliefs.” Brown v. Socialist
Workers ’74 Campaign Committee (Ohio), 459 U.S. 87,

8
91 (1982). When there is evidence that disclosure
would “subject [donors] to threats, harassment, or
reprisal,” then the government’s interest must be
especially compelling, and as-applied exceptions may
be granted to facially valid disclosure rules. Id. at 98100. But even where the chill to First Amendment
interests is less immediate and dramatic, the
government must always identify some compelling
interest to justify forced disclosure of individuals’
associational affiliations and show that the disclosure
regime is a narrowly tailored means of pursuing that
compelling interest.
ARGUMENT
I.

The Compelled Disclosure Of An
Organization’s Donors Should Be Subject
To Exacting First Amendment Scrutiny.
A.

For More Than Fifty Years, This
Court Has Emphasized The First
Amendment Harms From Forced
Disclosure of Organizational
Affiliations.

Compelled disclosure of organizations’ donors and
members became an issue of national importance
during the 1950s and 1960s, as governments
throughout the South imposed onerous disclosure
requirements on civil rights organizations as a tactic
to suppress their expression and political activity, or
to expel them from a given jurisdiction. In response,
this Court declared that such forced disclosures
impose substantial First Amendment harms, and
required governments seeking to force organizations
to turn over donor and membership rolls to
demonstrate a compelling government interest, with a

9
close connection to the required disclosure. Since then,
this Court has consistently affirmed the constitutional
principle that organizations have a First Amendment
interest in keeping associational donors and members
private, and that compelled disclosure must be closely
connected to a governmental interest that is
sufficiently important to justify the significant First
Amendment burden.
The Court’s first major decision in this area came
in NAACP v. Alabama, in which, upon a bill of
complaint filed by the Attorney General of Alabama, a
state court ordered the NAACP to disclose the names
and addresses of all Alabama NAACP “members” and
“agents” pursuant to an Alabama law regulating the
activity of non-profits in the State. 357 U.S. at 453.
While Alabama wrapped its actions in a “cloak of
legality,” the NAACP urged the Court to “view[] [them]
against a background of open opposition by state
officials and an atmosphere of violent hostility to [the
NAACP] and its members” because the NAACP sought
“the elimination of racial segregation and other
barriers of race.” Br. for Petitioner, 1957 WL 55387,
at *17. The Court unanimously “recognized the vital
relationship between freedom to associate and privacy
in one’s associations,” writing that it “is hardly a novel
perception that compelled disclosure of affiliation with
groups engaged in advocacy” restrains freedom of
association, and that “[i]nviobility of privacy in group
association may in many circumstances be
indispensable to preservation of freedom of
association, particularly where a group espouses
dissident beliefs.” NAACP v. Alabama, 357 U.S. at
462.
Indeed, the Court analogized “[c]ompelled
disclosure of membership in an organization engaged

10
in advocacy of particular beliefs” to “[a] requirement
that adherents of particular religious faiths or political
parties wear identifying arm-bands.” Id. Nowhere did
the Court, or the state of Alabama, question the
NAACP’s concerns about harassment and retaliation,
let alone suggest that it bore the burden of making
some threshold showing confirming the nature or
specificity of its concerns.
This Court again confronted a compelled disclosure
requirement in Shelton v. Tucker, which addressed an
Arkansas statute that compelled every teacher, as a
condition of employment, to file an annual affidavit
listing every organization to which she belonged or
regularly contributed within the preceding five years.
364 U.S. at 480.
In declaring the statute
unconstitutional, the Court again recognized that
compelled disclosure of a teacher’s “every associational
tie” necessarily “impair[s] that teacher’s right of free
association, a right closely allied to freedom of speech
and a right which, like free speech, lies at the
foundation of a free society.” Id. at 485-86.
The next year, in Louisiana ex rel. Gremillion v.
NAACP, 366 U.S. 293 (1961), the Court affirmed a
preliminary injunction barring Louisiana from
enforcing a law requiring any state organizations to
provide the Louisiana Secretary of State with their
members’ names and addresses. Id. at 295. Because
the case was in a “preliminary stage,” the question
whether NAACP members would face reprisals if their
names were disclosed was disputed. But the Court,
relying on NAACP v. Alabama and Shelton,
nevertheless affirmed the imposition of a preliminary
injunction. Id. at 296-97.

11
Subsequently, in Roberts v. Pollard, this Court
affirmed a decision by a three-judge district court
invalidating, under the First Amendment, an
Arkansas state court’s investigative subpoena seeking
a list of contributors to the Arkansas Republican
Party. 393 U.S. at 14. The three-judge court noted
that “there is no evidence of record in this case that
any individuals have as yet been subjected to reprisals
on account of the contributions” to the Republican
Party, but that it would be “naive not to recognize” that
disclosure would subject “at least some” contributors
to the “potential” for “economic or political reprisals of
greater or lesser severity.” 283 F. Supp. at 258. The
court therefore held that, even where there was no
evidence of any actual reprisals, the government must
provide some justification for a compelled disclosure.
See id. at 258-259. Concluding that Arkansas’s
investigatory justification was insufficient, the court
barred the State from requiring disclosure of the
contributions. Id. at 259.
The Court’s more recent precedents have applied
the same basic framework to disclosure laws. In
Buckley v. Valeo, 424 U.S. 1 (1976), the Court applied
“exacting scrutiny” to a statute requiring disclosure of
donations more than $100 per year to a candidate for
office. Id. at 63-64. Referencing the NAACP v.
Alabama line of cases, the Court reiterated that it “is
undoubtedly true that public disclosure of
contributions to candidates and political parties will
deter some individuals who otherwise might
contribute.” Id. at 68. Given this First Amendment
burden, the Court held the associational interest in
privacy “must be weighed carefully against the
interests which Congress has sought to promote by

12
this legislation.” Id. In the context of elections, the
Court held that the government’s interests were
sufficient to justify the compelled disclosure at issue—
especially since disclosure in that context is a lessspeech restrictive alternative to prohibiting or limiting
contributions altogether—though the Court left open
the possibility for as-applied challenges. Id. at 67-72.2
This Court later recognized just such an as-applied
exception to a similar state disclosure regime in a case
involving the Socialist Workers Party. See Brown, 459
U.S. at 89.
Most recently, in John Doe No. 1 v. Reed, 561 U.S.
186 (2010), this Court again emphasized that
compelled disclosure requirements are subject to close
First Amendment scrutiny. In that case, individuals
who signed a petition seeking a referendum to reverse
the expansion of rights for same-sex domestic partners
challenged a law that made their petition signatures
public. The Court applied “exacting scrutiny” to the
disclosure law, but, as in Buckley, the Court
recognized that the disclosure requirements were
carefully tailored to advance the government’s strong
interests in electoral transparency and integrity,
which outweighed individual First Amendment
As AFP argues (18, 28-29), cases involving election-related
disclosures are generally distinguishable from challenges to other
laws compelling disclosure of donor information not only because
of the strength of the government interest in promoting electionrelated transparency, but because public disclosure is generally
“the least restrictive means” of pursuing those interests. Buckley,
424 U.S. at 68. By contrast, narrow tailoring cannot be assumed
outside the electioneering context, as the government may have
means of pursuing objectives like law enforcement and fraud
prevention without mandating the disclosure of member and
donor information for all non-profit associations.
2

13
interests in most cases. Id. at 196-200. As in Buckley,
the Court recognized that a more limited challenge
could succeed if a specific organization established
that, in the context of a specific petition, threats of
harassment or retaliation were particularly likely or
serious. Id. at 201-02.
In all of these cases, from NAACP v. Alabama up
through Doe No. 1, this Court has demonstrated
considerable and consistent solicitude for the right to
privacy in association. That solicitude does not mean
that all disclosure requirements violate the First
Amendment. For instance, as the Court recognized in
Buckley and Doe No. 1, the government has
particularly compelling interests in the election
context that generally justify disclosure requirements.
But compelled disclosure of an organization’s members
or donors is always a material intrusion on First
Amendment rights, and it can only be justified when
the State carries its burden of demonstrating that the
disclosure is carefully tailored to further a weighty
government interest.
B.

There Is No Threshold Requirement
To Show Harassment From A
Particular Disclosure Requirement
Before Exacting First Amendment
Scrutiny Applies.

In the face of this precedent, the Ninth Circuit
rejected a facial challenge to California’s disclosure
requirement, reasoning that compelled disclosure of
donor information to the government did not impose
any First Amendment harm “in and of itself,” and
faulting the challenger for failing to produce specific
evidence that the organization’s “significant donors
would experience threats, harassment, or other

14
potentially chilling conduct as a result of the Attorney
General’s disclosure requirement.”
Ctr. for
Competitive Politics, 785 F.3d at 1316; see also Pet.
App. (No. 19-251) at 39a-40a (relying on Center for
Comparative Politics to reject petitioners’ facial
challenge here). Although the Ninth Circuit allowed
petitioners here to pursue as-applied First
Amendment challenges, the court turned those
challenges aside because California has promised to
keep donor information confidential and petitioners
did not identify donors “whose willingness to
contribute hinges” on whether their identity “will be
disclosed to the Attorney General.” Pet. App. (No. 19251) at 27a-28a (emphasis added). Thus, the Ninth
Circuit found it constitutionally insignificant that
petitioners’ evidence “shows that some individuals
who have or would support” their organizations “may
be deterred from contributing” by the Attorney
General’s compulsory disclosure regime. Id. at 27a.
The Ninth Circuit’s rule conditioning meaningful
First Amendment scrutiny on an organization’s ability
to show specific harm from a particular disclosure
requirement is inconsistent with the governing law
and should be rejected.
1. This Court has regularly applied First
Amendment scrutiny to compelled disclosure
requirements even where there was no objective
evidence that the disclosure would lead to “threats,
harassment, or reprisal.” In Shelton, for instance, the
Court invalidated the requirement that Arkansas
teachers identify their organizational affiliations
because “the pressure upon a teacher to avoid any ties
which might displease those who control his
professional destiny would be constant and heavy.”

15
364 U.S. at 486. There was no evidence put forward
showing that Arkansas would discriminate against
those with particular organizational affiliations, and
no evidence that the fear of such discrimination
motivated any teacher to cease her affiliations. The
Court nevertheless held that the government had
failed to justify its compelled disclosure requirement
with interests that were sufficiently important and
sufficiently connected to the compelled disclosure at
issue. Id. at 487-488.
The Court’s affirmance in Roberts v. Pollard
further demonstrates that the government must
always justify a compelled disclosure requirement
under exacting scrutiny—requiring both a compelling
government interest and narrow tailoring. 283 F.
Supp. at 258. The three-judge court recognized that
“there [was] no evidence of record . . . that any
individuals have as yet been subjected to reprisals on
account of” the compelled disclosure requirement at
issue. Id. Nevertheless, the court applied First
Amendment scrutiny and barred the disclosure
because it would be “naive not to recognize” the
“potential” for “at least some” reprisals from the broad
disclosure sought by the government. Id. Further, the
court recognized that the disclosure at issue would
chill First Amendment activity simply because “many
people doubtless would prefer not to have their
political party affiliations and their campaign
contributions disclosed publicly.” Id. Despite the lack
of record evidence of reprisals, this Court affirmed the
judgment in that case, 393 U.S. 14, and has
subsequently cited Pollard as precedent in compelleddisclosure decisions, e.g., Buckley, 424 U.S. at 64-65.

16
Finally, in Buckley, this Court also applied First
Amendment scrutiny without requiring record
evidence that the compelled disclosure at issue would
lead to harassment or reprisals. This Court explained
that “compelled disclosure, in itself, can seriously
infringe on privacy of association and belief
guaranteed by the First Amendment.” 424 U.S. at 64
(emphasis added). But see Ctr. for Comparative
Politics, 784 F.3d at 1316 (insisting, contra Buckley,
that there is no First Amendment interest affected by
disclosure “in and of itself”).
This Court then
considered whether the government interests
sufficiently justified the disclosure requirement,
despite the lack of evidence of reprisals, and, relying
on considerations specific to the electoral context, held
that they did. 424 U.S. at 67-72; see p. 11 & n.2, supra.
2. Numerous courts of appeals have relied on this
Court’s decisions to reject government arguments that
the First Amendment does not impose meaningful
scrutiny unless and until the plaintiff introduces
concrete evidence of harassment or intimidation. For
instance, in Boorda v. Subversive Activities Control
Board, 421 F.2d 1142 (D.C. Cir. 1969), the D.C. Circuit
invalidated a requirement for the Communist Party to
disclose its members, even though there was “no direct
evidence in the record in this case as to the degree of
harassment that one named as a member of the
Communist Party may suffer as a result” of disclosure.
Id. at 1148 & n.20.
Similarly, in an opinion in Community-Service
Broadcasting of Mid-America, Inc. v. FCC, 593 F.2d
1102 (D.C. Cir. 1978) (en banc), Judge J. Skelly Wright
rejected the government’s argument that no First
Amendment scrutiny was necessary because there was

17
no evidence of a chilling effect from compelled
disclosure.3 As Judge Wright explained, “[c]hilling
effect is, by its very nature, difficult to establish in
concrete and quantitative terms; the absence of any
direct actions against individuals assertedly subject to
a chill can be viewed as much as proof of the success of
the chill as of evidence of the absence of any need for
concern.” Id. at 1118. If there is “concrete evidence of
a successful chill, the case is a stronger one, and the
burden on government to justify its regulation must be
heavier.” Id. at 1118. But the absence of “concrete
evidence . . . does not mandate dismissal”; instead, the
court must “evaluate the likelihood of any chilling
effect, and . . . determine whether the risk involved is
justified in light of the purposes served by the statute.”
Id.
Like the D.C. Circuit, the Second and Third
Circuits have previously rejected attempts to require
plaintiffs to present specific evidence of harassment or
reprisal to trigger First Amendment scrutiny for
disclosure laws. In Local 1814, the government sought
to compel disclosure of union members who had
authorized payroll deductions to support the union.
The government argued that the union members had
not established any “impairment of protected rights”
because they made no “showing that disclosure of
contributors’ identities would lead to economic or
physical harassment.” 667 F.2d at 271. Relying on
Pollard and Shelton, the Second Circuit rejected that
argument and explained that “a factual record of past
Judge Wright wrote the opinion of the court striking down the
disclosure requirement on non-First Amendment grounds, but
the section of his opinion addressing First Amendment issues was
not joined by a majority of judges.
3

18
harassment is not the only situation in which courts
have upheld a First Amendment right of nondisclosure,” because the “underlying inquiry must
always be whether a compelling governmental interest
justifies any governmental action.” Id. at 271-272
(emphasis added). The Second Circuit applied the
same analysis in ACLU v. Clapper, 785 F.3d 787 (2d
Cir. 2015), involving a challenge to the government’s
collection of telephone metadata. In concluding that
the associational plaintiffs had standing, the court
recognized that “[w]hen the government collects
appellants’ metadata, appellants’ members’ interests
in keeping their associations and contacts private are
implicated, and any potential ‘chilling effect’ is created
at that point.” Id. at 802-03 (emphasis added); see also
Fraternal Order of Police, Lodge No. 5 v. City of
Philadelphia, 812 F.2d 105, 119-120 (3d Cir. 1987)
(rejecting disclosure requirement where the
government had no “legitimate interest” without first
requiring objective evidence that the requirement
would “chill . . . associational activities”).
In short, courts have repeatedly recognized that the
First Amendment imposes strict limits on a
government’s ability to compel disclosure of
organizational affiliations.
Those limits are not
conditioned on an individual organization’s ability to
put forward objective evidence that the specific
disclosure would lead to threats or harassment, or
would cause a specific person to drop out of the group
or refrain from donating. The government should not
be allowed to compile an electronic dossier on the
affiliations of anyone who cannot show they have faced
threats or harassment due to the government’s data
collection.

19
C.

Courts May Still Consider Evidence
Of Threats Or Harassment In
Determining Whether Government
Interests Are Sufficient To Justify
Compelled Disclosure.

As the above discussion illustrates, evidence of
threats or harassment resulting from disclosure
requirements is not necessary to establish a First
Amendment violation. But it is relevant to the First
Amendment inquiry.
First, evidence of threats or harassment are
relevant if the government’s interests are sufficient to
justify a generally-applicable compelled-disclosure
requirement, but a specific organization brings an asapplied challenge. Thus, in Buckley, after concluding
that the government’s interests justified the disclosure
requirement as a whole, the Court separately
considered whether minor and independent parties
could introduce evidence showing that their
contributors suffered particular First Amendment
harm warranting an exception from the generallyapplicable requirement. 424 U.S. at 69-72. The Court
then applied that exception in Brown. 459 U.S. at 89.
And in Doe No. 1, the Court held that the government’s
interests were sufficient to justify the disclosure
requirement as a whole, but left open the possibility
that a particular group must be exempted from the
disclosure requirement based on particularly acute
First Amendment concerns. 561 U.S. at 201-02; see
also id. at 205-211 (Alito, J., concurring).
Second, evidence of widespread harassment and
reprisal from compelled disclosure is relevant, though
not necessary, in a facial challenge to a compelled
disclosure requirement. For instance, while this Court

20
in Shelton invalidated the requirement that all
teachers disclose their organizational affiliations
without any evidence of threats or harassment,
evidence that teachers were routinely harassed or
threatened based on their disclosures would certainly
have strengthened their case.
The Ninth Circuit reasoned that the relevant
evidence in those scenarios must be evidence of
threats, harassment, or chilling caused by the specific
public disclosure requirement at issue. E.g. Pet. App.
(No. 19-251) at 24a, 33a. That is incorrect. As the
Buckley Court recognized, “unduly strict requirements
of proof”—such a “[a] strict requirement that chill and
harassment be directly attributable to the specific
disclosure” at issue—may substantially under-protect
First Amendment rights. 424 U.S. at 74. Thus, if
there is evidence of “past or present harassment of
members due to their associational ties, or of
harassment directed against the organization itself,”
courts may reasonably infer that compelling disclosure
of associational information will lead to threats and
harassment. Id.
In briefing before the Ninth Circuit panel, the
Attorney General contended that, under Buckley,
courts should only apply this flexible approach to
establishing First Amendment chill for “minor” or
“new” parties. No. 16,44727, Respondent C.A. Br. 2730. But that argument is both contrary to precedent
and deeply problematic. As discussed above, p. 16,
supra, the court in Pollard did not apply such a narrow
evidentiary approach to the compelled disclosure of
Republican Party donors—hardly a “minor” or “new”
party, even in 1960s Arkansas. See 283 F. Supp. 2d at
258. More fundamentally, such a rule would be

21
impossible to administer—outside the context of
electoral politics, there is no coherent way to
determine whether a party is “new” or “minor.”
Courts should therefore be able to take such
background evidence into account when assessing the
chilling effect of a disclosure requirement.
*****
In sum, although evidence that a particular public
disclosure requirement will lead to threats or
harassment will always bolster a First Amendment
challenge, meaningful First Amendment scrutiny is
not contingent on whether a challenger is able to put
forward specific evidence of lost contributions or that
particular members faced “threats, harassment, or
reprisal.” Before the government may collect its
citizens’ organizational affiliations, it must show that
it has a compelling interest that it could not achieve in
a less intrusive manner that does no impinge upon
fundamental associational liberties.
II.

The First Amendment Burden From
Compelled Disclosure Of Donor Identity
Exists Regardless Of Whether The
Information Is Publicly Disclosed.

The Ninth Circuit held that the First Amendment
burden imposed by the compelled disclosure of private
donor information is minimal because the Attorney
General is required to keep information confidential.
Pet. App. (No. 19-251) at 34a-38a. But such a pledge
does not eliminate the substantial chilling effect of
overly broad disclosure laws because even if the
promise of nondisclosure to the public were credible,
but see AFP Br. 39-43, disclosure to the government
itself may deter the exercise of associational rights

22
given the reasonable fear of future governmental
retaliation.
At the core of the First Amendment is the right for
individuals to organize to engage in dissent, challenge
the government, and hold the powerful to account.
“Inviolability of privacy in group association may in
many circumstances be indispensable” to preserving
those rights, “particularly where a group espouses
dissident beliefs.” Brown, 459 U.S. at 91 (citation
omitted); accord Gibson v. Florida Legislative
Investigation Committee, 372 U.S. 539, 556-57 (1963)
(recognizing that “all legitimate organizations are the
[b]eneficiaries” of privacy protections, but that they
are “mo[st] essential” for organizations that espouse
unpopular beliefs). Groups engaged in controversial
expression may thus reasonably fear not only
disclosure to the public, but also disclosure to the
government. See Shelton, 364 U.S. at 486 (requiring
teachers to disclose their affiliations violated their
right of free association “[e]ven if there were no
disclosure to the general public”).
Indeed, when an organization litigates against or
otherwise opposes government policies or public
officials, its members may have the most to fear from
government retaliation. Only government officials can
wield the State’s authority to harass an association’s
members, interfere with their business interests, block
access to government employment, or even threaten
their freedom. Far from a hypothetical or abstract
fear, American history is replete with examples of
governments using their investigative and coercive
powers to target unpopular groups, including the
infiltration of anti-war groups and the targeting and

23
monitoring of civil rights activists.4 Even where the
government does not actually misuse an organization’s
confidential disclosures to target opponents, the
reasonable fear among donors and members that it
might do so is enough to chill the exercise of speech
and associational rights.
Courts have recognized the legitimacy of these
concerns, and applied exacting scrutiny to compelled
disclosure requirements without record evidence that
the government will misuse the information it collects.
For example, in Shelton, the Supreme Court explained
that even if the teachers’ information was not shared
with the public or otherwise acted upon, “the pressure
upon a teacher to avoid any ties which might displease
those who control his professional destiny would be
constant and heavy.” 364 U.S. at 486. Similarly, in
Local 1814, the Second Circuit held that a subpoena
by a government commission to compel the disclosure
of contributors to a union’s political action committee
would have an “inevitable” chilling effect on future
donations, given the commission’s regulatory
authority over the union members. 667 F.2d at 272.
The

chilling

effect

of

disclosing

sensitive

See generally Church Committee Reports, Book II, Intelligence
Activities and the Rights of Americans, at 211-24 (1976), available
at https://bit.ly/37Knjrl; see also, e.g., ACLU, Unleashed and
Unaccountable: The FBI’s Unchecked Abuse of Authority, 41-43
(Sept. 2013), https://bit.ly/2NS4Hi1 (“The FBI . . . targeted
political advocacy organizations with renewed vigor after 9/11, as
demonstrated through ACLU FOIAs and confirmed by the 2010
Inspector General audit.”); Jen Christensen, FBI Tracked King’s
Every Move, CNN (Dec. 29, 2008), https://cnn.it/2OYbU0r;
Beverly Gage, What an Uncensored Letter to M.L.K. Reveals, N.Y.
TIMES (Nov. 11, 2014), https://nyti.ms/3dDhRdE.
4

24
associational information is not mitigated by the
government’s assurances of good faith. See United
States v. Stevens, 559 U.S. 460, 480 (2010) (“[T]he First
Amendment protects against the Government; it does
not leave us at the mercy of noblesee oblige.”). By
collecting and aggregating confidential information
about an organization’s donors or members, the
government creates a loaded gun that a future
administration might decide to fire. Any donor to an
organization engaged in potentially controversial
expression must consider the risk that future
executive officials with access to donor lists may use
those lists as a tool to enable politically motivated
investigations.5 It is easy to imagine, for example, that
a Black Lives Matter organization,6 or an organization
assisting undocumented immigrants at the border,7
would have justifiable concerns about turning their
donor or membership information to the government,
regardless of whether that information remains nonpublic.
In short, fear of sensitive associational information
falling into government hands will likely deter
membership
and
donations
to
controversial
organizations, and chill the exercise of First
Amendment rights. See Pollard, 283 F. Supp. at 258.
Cf. Mark Hosenball, U.S. ethics groups say Barr uses DOJ as
political tool, call for his impeachment, REUTERS (Oct. 12, 2020),
https://reut.rs/3qSWclx.
5

See Michael German, The FBI Targets a New Generation of
Black Activists, BRENNAN CENTER FOR JUSTICE (Jun. 26, 2020),
https://bit.ly/2PcLmZL.
6

Jose A. Del Real & Zolan Kanno-Youngs, U.S. Tracked Activists
and Journalists as Migrant Caravans Headed to the Border, N.Y.
TIMES (May 7, 2019), https://nyti.ms/37KakWC.
7

25
Courts must accordingly apply exacting First
Amendment scrutiny to compulsory disclosure rules,
even when the government promises confidentiality.
CONCLUSION
This Court should reverse the decision below and
hold that the government is required to identify a
compelling reason that is narrowly tailored to any
requirement that an organization disclose the identity
of its members and donors.
Respectfully submitted.
BRIAN T. BURGESS
Counsel of Record
GOODWIN PROCTER LLP
1900 N Street NW
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
Dated: March 1, 2021

